APPLICATION AND
SOLICITATION
DISCLOSURE
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

APCU Visa Platinum/Affinity Rewards - UPMA
Affinity Rewards - A-Plus/Affinity Rewards - NRLCA

0.00% Introductory APR for a period of six billing cycles.
After that, your APR will be 9.90%
creditworthiness.

to 16.90%, based on your

APCU Choice/Center Parc Choice

0.00% Introductory APR for a period of six billing cycles.
After that, your APR will be 7.25% to 15.25%, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
APCU Platinum Rewards/APCU Signature Rewards/Center Parc
Platinum Rewards/Center Parc Signature Rewards/Affinity Georgia
State Rewards/APCU Momentum/Center Parc Momentum

0.00% Introductory APR for a period of six billing cycles.

After that, your APR will be 9.25% to 17.25%, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
APR for Balance Transfers

APCU Visa Platinum/Affinity Rewards - UPMA
Affinity Rewards - A-Plus/Affinity Rewards - NRLCA
0.00% Introductory APR for a period of six billing cycles.
After that, your APR will be 9.90% to 16.90%, based on your
creditworthiness.
APCU Choice/Center Parc Choice
0.00% Introductory APR for a period of six billing cycles.
After that, your APR will be 7.25% to 15.25%, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
APCU Platinum Rewards/APCU Signature Rewards/Center Parc
Platinum Rewards/Center Parc Signature Rewards/Affinity Georgia
State Rewards/APCU Momentum/Center Parc Momentum
0.00% Introductory APR for a period of six billing cycles.
After that, your APR will be 9.25% to 17.25%, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.

SEE NEXT PAGE for more important information about your account.
01000038-MXC10-C-2-061821 (MXC102-E)

APR for Convenience Checks

APCU Visa Platinum/Affinity Rewards - UPMA
Affinity Rewards - A-Plus/Affinity Rewards - NRLCA
0.00% Introductory APR for a period of six billing cycles.
After that, your APR will be 9.90% to 16.90%, based on your
creditworthiness.
APCU Choice/Center Parc Choice
0.00% Introductory APR for a period of six billing cycles.
After that, your APR will be 7.25% to 15.25%, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
APCU Platinum Rewards/APCU Signature Rewards/Center Parc
Platinum Rewards/Center Parc Signature Rewards/Affinity Georgia
State Rewards/APCU Momentum/Center Parc Momentum
0.00% Introductory APR for a period of six billing cycles.

APR for Cash Advances

After that, your APR will be 9.25% to 17.25%, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
APCU Visa Platinum/Affinity Rewards - UPMA
Affinity Rewards - A-Plus/Affinity Rewards - NRLCA
9.90% to 16.90%, based on your creditworthiness.
APCU Choice/Center Parc Choice
9.25% to 17.25%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
APCU Platinum Rewards/APCU Signature Rewards/Center Parc
Platinum Rewards/Center Parc Signature Rewards/Affinity Georgia
State Rewards/APCU Momentum/Center Parc Momentum
11.25% to 19.25%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.

How to Avoid Paying Interest on
Purchases
For Credit Card Tips from the
Consumer Financial Protection Bureau
Fees
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee - APCU Visa
Platinum, Affinity Rewards – UPMA,
Affinity Rewards – A-Plus, Affinity
Rewards – NRLCA, APCU Choice,
Center Parc Choice, APCU Momentum,
Center Parc Momentum
- Foreign Transaction Fee - APCU
Signature Rewards, Center Parc
Signature Rewards

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

None
2.00% of the amount of each cash advance
1.00% of each transaction in U.S. dollars

None

SEE NEXT PAGE for more important information about your account.
01000038-MXC10-C-2-061821 (MXC102-E)

Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

Up to $40.00
Up to $29.00
Up to $29.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Promotional Period for Introductory APR:
The Introductory APR for purchases, balance transfers, and convenience checks will apply to transactions posted to your
account during the first 75 days following the opening of your account.
Effective Date:
The information about the costs of the card described in this application is accurate as of: June 30, 2021
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the APCU Visa Platinum, Affinity Rewards – UPMA, Affinity Rewards - A-PLUS, Affinity
Rewards - NRLCA, APCU Momentum, Center Parc Momentum, APCU Choice, Center Parc Choice, APCU
Platinum Rewards, APCU Signature Rewards, Center Parc Platinum Rewards, Center Parc Signature Rewards,
and Affinity Georgia State Rewards are secured credit cards. Credit extended under this credit card account is
secured by various personal property and money including, but not limited to: (a) any goods you purchase with
this account, (b) any shares you specifically pledge as collateral for this account on a separate Pledge of Shares,
(c) all shares you have in any individual or joint account with the Credit Union excluding shares in an Individual
Retirement Account or in any other account that would lose special tax treatment under state or federal law, and
(d) collateral securing other loans you have with the Credit Union excluding dwellings.
Other Fees & Disclosures:
Late Payment Fee:
$29.00 or the amount of the required minimum payment, whichever is less, if you are 10 or more days late in making a
payment. In the event you fail to make a payment on time in any of the six billing cycles following the initial violation, you
will be charged $40.00 or the amount of the required minimum payment, whichever is less.
Cash Advance Fee (Finance Charge):
2.00% of each cash advance.
Over-the-Credit Limit Fee:
$29.00 or the amount of the transaction exceeding your approved credit limit, whichever is less.

SEE NEXT PAGE for more important information about your account.
01000038-MXC10-C-2-061821 (MXC102-E)

Returned Payment Fee:
$29.00 or the amount of the required minimum payment, whichever is less.
Returned Convenience Check Fee:
$29.00 if the amount of the convenience check is $29.00 or greater. If the convenience check is less than $29.00, the fee
will not be assessed.
Card Replacement Fee:
$10.00.
Document Copy Fee:
$5.00.
Pay-by-Phone Fee:
$10.00.
Rush Fee:
$25.00.
Statement Copy Fee:
$5.00.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

01000038-MXC10-C-2-061821 (MXC102-E)

